September 2008
Report No. AUD-08-017


FDIC’s Controls Over Contractor
Invoice Approval, Payment, and
Posting to the General Ledger




            AUDIT REPORT
                                                            Report No. AUD-08-017                                            September 2008

                                                            FDIC’s Controls Over Contractor Invoice
                                                            Approval, Payment, and Posting to the
            Federal Deposit Insurance Corporation           General Ledger
Why We Did The Audit
                                                            Audit Results
Of the FDIC’s $992 million in calendar-year 2007
operating expenses, over $250 million represents            The FDIC has established and implemented generally adequate controls over
amounts paid for contracted goods and services.             contractor invoice approval, payment, and posting to the general ledger. The
Through June 2008, $121 million of $495 million in          NFE provides an audit trail from the authorized invoice approval through posting
operating expenses was for contractor payments, part of     of the payment transactions. Additionally, the FDIC has enhanced its Contract
which was paid based on contractor invoices.                Oversight Management Program to ensure that Oversight Managers (OM) receive
                                                            and complete training regarding their roles in independently reviewing and
The audit objective was to assess the FDIC’s controls       approving contractor invoices for payment.
over contractor invoice approval, payment, and posting
to the General Ledger. Our review included a sample of      Based on our review of the 30 sampled contractor invoices, representing total
30 of 1,148 FDIC invoices, representing $5.7 million in     FDIC expenditures of $5.7 million, we found that additional control activities
contractor invoice payments that totaled $37.5 million      could improve the OM’s review and approval procedures as described below.
during the period October 2007 through March 2008.
                                                                •    Segregation of duties was lacking for five invoices, representing
                                                                     $239,300 in payments. The same OM prepared and approved two
Background                                                           invoices. Another OM submitted the three other invoices directly to
                                                                     DOF for the contractors and then approved the invoices for payment.
The General Ledger is the central component of the New               Properly designed control activities help ensure that no one individual
Financial Environment (NFE), the FDIC’s financial                    can initiate and approve a transaction. Maintaining the segregation of
management system. The General Ledger provides                       duties in the invoice payment process would help reduce the risk of
accounting, reporting, and decision-making information               errors or unauthorized transactions.
for the FDIC. The FDIC’s Division of Finance (DOF) is
responsible for maintaining the General Ledger,                 •    Three of 15 OMs, who approved 3 invoices with a total value of
receiving contractor invoices, verifying payment                     $213,150, did not have confirmation letters from Contracting Officers,
approvals, issuing disbursements, and posting                        authorizing the OMs to perform contractor oversight responsibilities,
transactions to the General Ledger.                                  including reviewing and approving invoices for payments. Also, two
                                                                     OMs who had not completed required training approved three invoices
The audit focused on the FDIC’s control activities                   totaling $130,600. Confirmation letters and training help to ensure that
intended to provide reasonable assurance that the FDIC               OMs correctly review and approve invoice payments in accordance with
(1) meets management directives, such as budget                      FDIC policies.
execution; (2) accomplishes control objectives, such as
efficient use of FDIC resources; and (3) mitigates risk.        •    The CEFile did not contain 26 out of 30 invoices sampled, representing
Control activities for invoice processing include the                about $1.7 million out of $5.7 million in contractor payments. OMs did
segregation of the receiving, invoicing, and purchasing              not consistently follow the FDIC’s acquisition policy on documenting
functions; goods and services receipt verification;                  these contract activities in the CEFile. Timely inclusion of invoices in
managerial authorizations; independent review before                 the CEFile ensures accurate and complete records of contract activities.
payment; and pre-payment procedures for Prompt
Payment Act compliance and duplicate payment                Strengthening controls in these areas will help in ensuring the effectiveness and
detection to ensure that only valid transactions are        efficiency of operations, reliability of financial reporting, and compliance with
authorized and approved.                                    FDIC policies and procedures.

The Contractor Electronic File (CEFile) is the FDIC’s
official system of records for contract activities,         Recommendations and Management Response
including invoice approval decisions as part of contract
oversight management. The FDIC’s Acquisition Policy         We recommended DOF and DOA ensure the segregation of duties for invoice
Manual and guidance from the Division of                    preparation and approval. We also recommended DOA ensure that the OMs
Administration’s (DOA) Acquisition Services Branch
                                                            receive confirmation letters; complete required training; and maintain current,
describe the oversight management responsibilities          accurate, and complete documentation in the CEFile.
related to invoices. General Ledger procedures related to
operating expenses are defined in the FDIC’s Operating
                                                            DOA and DOF concurred with our recommendations and planned to take
Expenses Process Memorandum and the DOF’s                   responsive actions.
Accounts Payable Operating Procedures Manual.



To view the full report, go to www.fdicig.gov/2008reports.asp
Contents                                                           Page


BACKGROUND                                                           2
  Guidance and Controls Related to Contractor Payments               2

RESULTS OF AUDIT                                                     5

PAYMENT PROCESSING AND GENERAL LEDGER POSTING                        6

SEGREGATION OF DUTIES FOR INVOICE APPROVAL                           6
  Recommendation Related to Segregation of Duties for Invoice        7
  Approval

OM CONFIRMATION LETTERS AND TRAINING                                 8
  Recommendation Related to OM Confirmation Letters and Training     8


CONTRACT DOCUMENTATION                                               8
  Recommendation Related to Contract Documentation                   9


CORPORATION COMMENTS AND OIG EVALUATION                              9


APPENDICES
  1. OBJECTIVE, SCOPE, AND METHODOLOGY                              11
  2. SAMPLED INVOICES                                               16
  3. CORPORATION COMMENTS                                           17
  4. MANAGEMENT RESPONSE TO RECOMMENDATIONS                         20
  5. ACRONYMS USED IN THE REPORT                                    21
Federal Deposit Insurance Corporation                                                           Office of Audits
3501 Fairfax Drive, Arlington, VA 22226                                            Office of Inspector General


DATE:                                     September 22, 2008

MEMORANDUM TO:                            Bret D. Edwards
                                          Director, Division of Finance

                                          Arleas Upton Kea
                                          Director, Division of Administration

                                          /Signed/
FROM:                                     Russell A. Rau
                                          Assistant Inspector General for Audits

SUBJECT:                                  FDIC’s Controls Over Contractor Invoice Approval,
                                          Payment, and Posting to the General Ledger
                                          (Report No. AUD-08-017)


This report presents the results of our audit of the FDIC’s controls over contractor invoice
approval, payment, and posting to the General Ledger (G/L). The G/L is the central
component of the New Financial Environment (NFE)—the FDIC’s financial management
system. The G/L provides accounting, reporting, and decision-making information for
the FDIC. The FDIC’s Division of Finance (DOF) is responsible for maintaining the
G/L, receiving contractor invoices, verifying payment approvals, issuing disbursements
and posting transactions to the G/L. In addition, the Division of Administration’s (DOA)
Acquisition Services Branch (ASB) is responsible for developing all contracting policies
and procedures and communicating and implementing those policies and procedures
throughout the FDIC.

The audit objective was to assess the FDIC’s controls over contractor invoice approval,
payment, and posting to the G/L. The audit focused on the FDIC’s control activities
intended to provide reasonable assurance that the FDIC (1) meets management directives,
such as budget execution; (2) accomplishes control objectives, such as efficient use of
FDIC resources; and (3) mitigates risk. Control activities for invoice processing include
the segregation of the receiving, invoicing, and purchasing functions; goods and services
receipt verification; managerial authorizations; independent review before payment; and
pre-payment procedures for Prompt Payment Act (PPA) 1 compliance and duplicate
payment detection to ensure that only valid transactions are authorized and approved.


1
 The PPA and its implementing regulations from the U.S. Office of Management and Budget, (5 Code of
Federal Regulations (C.F.R.) Part 1315) require that agencies, among other things, pay interest to
contractors if contractor invoices are not paid in a timely manner, for example, within the period
established by the contract. The FDIC, in its corporate capacity, is an agency for purposes of the PPA.
Additional information is contained in Appendix 1 under the Compliance with Laws and Regulations
section.
      We conducted this performance audit in accordance with generally accepted government
      auditing standards. Appendix 1 of this report discusses our audit objective, scope, and
      methodology in detail.


BACKGROUND

      Of the FDIC’s $992 million in calendar-year 2007 operating expenses, over $250 million
      represents amounts paid for contracted goods and services. For the 6 months ended June
      2008, $121 million of $495 million in operating expenses was for contractor payments.
      Part of the $121 million was paid based on contractor invoices. Our review included a
      sample of 30 of 1,148 FDIC invoices, representing $5.7 million of the total $37.5 million
      in contractor payments from October 2007 through March 2008. The FDIC had assigned
      15 Oversight Managers (OM) the responsibility for the review and approval of the 30
      sampled invoices (see Appendix 2), representing 18 contractors.


Guidance and Controls Related to Contractor Payments

      The FDIC has a number of policies and procedures related to controls over the contractor
      invoice payment process as described below.

      FDIC Circular 4010.3. FDIC Circular 4010.3, FDIC Enterprise Risk Management
      Program, adopted internal control standards prescribed in the Government Accountability
      Office (GAO) publication, Standards for Internal Control in the Federal Government.
      These standards apply to all operations (programmatic, financial, and compliance) and are
      intended to ensure the effectiveness and efficiency of operation, reliability of financial
      reporting, and compliance with applicable laws and regulations. Circular 4010.3 requires
      management to develop and implement controls to ensure that management directives are
      carried out and to provide reasonable assurance that controls are sufficient to minimize
      exposure to waste, fraud, and mismanagement.

      Key control activities related to contractor payments described in Circular 4010.3 include:

          •   Segregation of Duties. Key duties and responsibilities shall be divided among
              different individuals such that no one individual should control all key aspects of a
              transaction to reduce the risk of error or fraud.

          •   Proper Execution of Transactions and Events. Transactions and other significant
              events shall be authorized and executed only by persons acting within the scope of
              their authority.

          •   Appropriate Documentation of Transactions and Internal Controls. Internal
              controls, all transactions, and other significant events shall be clearly
              documented. This helps to ensure that payment transactions are complete,


                                                   2
        accurate, and recorded in a timely manner. Documentation shall be readily
        available for examination.

The circular also requires management to perform monitoring activities to assess the
quality of performance over time and the effectiveness of controls. Monitoring activities
include routine management and supervisory actions; transaction comparisons and
reconciliations; other actions taken in the course of normal operations; as well as separate
and discrete control evaluations, including internal self-assessments and external reviews.


The Acquisition Policy Manual. The FDIC’s Acquisition Policy Manual (APM)
provides that contract OMs are, among other things, responsible for reviewing and
approving invoices promptly for payment to avoid interest on late payments and
ensuring that the goods or services contracted for are received and within the scope of the
contract. The APM requires that the Contracting Officer provide the program-appointed
OM with a Letter of Oversight Manager Confirmation, describing the OM’s authority
and responsibilities. Prior to receiving the letter of confirmation, OMs are required to
complete training that includes, among other things, the OM role in contract
administration.


Interim Acquisition Policy No. 2004-5, CEFile, dated August 10, 2004. The policy
states that the Contract Electronic File (CEFile) is the official contract file of record for
the ASB. The CEFile is a Web-based template on the FDICnet used to create official
contract files and electronically organize and store all pertinent contract file
documentation such as the requirements package, contract, contract modifications, and
OM’s contract-related records. The policy memorandum states that the Contracting
Officers and OMs are responsible to ensure that the CEFile is current, accurate, and
complete. The documentation in the file shall be sufficient to (a) provide a complete
background as a basis for informed decisions at each step in the acquisition process;
(b) support actions taken; (c) provide information for reviews and investigations; and
(d) furnish essential facts in the event of litigation or congressional inquiries.


Interim Acquisition Policy No. 2007-02, Establishment of the FDIC Contract
Oversight Management Program, dated April 12, 2007. The policy memorandum
formally establishes the FDIC Contract Oversight Management Program and states that
supervisors must ensure that individuals considered for appointment as OMs obtain
certain competencies needed to effectively and efficiently perform delegated contract
management duties. On May 11, 2007, ASB notified OMs regarding mandatory
classroom training.


Operating Expense Process Memorandum. DOF’s Disbursement Operations Unit
(DOU) processes approved invoices for goods and services procured by the FDIC. The
FDIC’s Operating Expense Process Memorandum, for calendar year 2007, defines the



                                               3
G/L procedures related to operating expenses, which are included in the Operating
Expense line item on the FDIC’s financial statements. The process memorandum
identifies key events and describes the controls provided at each stage as summarized
below:

    •   DOU is responsible for the initial receipt and date stamping of invoices and input
        of information into the NFE Accounts Payable Module. DOU is also responsible
        for evaluating invoices to ensure compliance with the PPA late payment
        provisions.

    •   DOU reviews invoice information to verify that it complies with the FDIC-
        designed vendor invoice format that is acceptable for NFE billing. The
        standardized invoice form requires vendors to provide mandatory elements, such
        as the contract/purchase order number, labor categories, hourly rates, period being
        invoiced, and applicable backup documentation, to determine, among other
        things, the appropriate fund and expense accounts in the G/L for authorizing the
        payment transaction. Once approved by DOU, the invoice is routed in NFE to the
        OM for final approval.

    •   The OM is responsible for reviewing the invoice in accordance with ASB
        requirements, including the APM. The review is intended to ensure that the
        invoice is correct and complies with the terms and conditions of the contract and
        the payments in process do not exceed the specified contract purchase order or
        task order contract limits and expenditure authority. The Invoice Review
        Checklist in the APM provides the OM guidelines for reviewing contractor
        invoices. If the invoice and purchase order are correct, the OM approves the
        invoice in NFE.

    •   Once the OM approves the invoice in NFE, payments are generally made through
        an Electronic Funds Transfer (EFT). 2 DOU approves the daily electronic payment
        transactions on-line. EFT payment files are sent to the disbursing bank upon
        e-mail notification from DOU to DOF’s NFE Servicing and Control Unit
        (NSCU). The NFE Accounts Payable Module then records the journal entries for
        the payment transactions and through its system interface with the G/L,
        automatically posts these transactions to the appropriate fund and expense
        accounts in the G/L. The Accounts Payable Module has built-in edits to prevent
        duplicate payments. In addition, daily reports are run and reviewed by DOU to
        detect suspect invoices that could result in duplicate payments.

The GAO, as part of the annual audit of the FDIC’s financial statements, assesses the
controls for contractor invoice payment processing and G/L posting activities. GAO’s
audit work includes testing and tracing of contractor invoice payments from approval
through disbursements and G/L postings.


2
 EFT is the electronic movement of funds from one bank account to another, by means of electronically
communicated payment instructions.


                                                   4
    The DOF Accounts Payable Operating Procedures Manual, November 2006. DOF
    maintains this manual to document activities and procedures related to the FDIC’s
    Accounts Payable function. The topics addressed in the Manual include:

       •   Reviewing an Accounts Payable invoice before processing
       •   Accounts Payable pay-cycle review and approval
       •   Auditing large dollar Accounts Payable payments
       •   Reviewing and monitoring for compliance with the PPA
       •   Reviewing and monitoring for duplicate payments
       •   Accounts Payable voucher routing error
       •   Accounts Payable voucher override/matching procedure
       •   Scanning and attaching an invoice voucher
       •   Accounts Payable Electronic Invoice Processing
       •   Processing Accounts Payable Expense Adjustment Voucher


RESULTS OF AUDIT

    The FDIC has established and implemented generally adequate controls over contractor
    invoice approval, payment, and posting to the G/L. The NFE provides an audit trail from
    the authorized invoice approval through posting of the payment transactions to the G/L.
    Payment transactions for the 30 sampled invoices were accurately posted to the correct
    fund and expense accounts in the G/L. Additionally, the FDIC has enhanced its Contract
    Oversight Management Program to ensure that OMs receive and complete training
    regarding their roles in reviewing and approving contractor invoices for payment.

    However, based on our review of the 30 sampled contractor invoices, representing total
    FDIC expenditures of $5.7 million, we found that enhanced control activities could
    improve the OM’s review and approval procedures as described below.

       •   Segregation of duties was lacking for five invoices, representing $239,300 in
           contractor payments. The same OM prepared and approved two invoices.
           Another OM submitted the three other invoices directly to DOF for the
           contractors and then approved those invoices for payment. Properly designed
           control activities help ensure that no one individual can initiate and approve a
           transaction. Maintaining the segregation of duties in the invoice payment process
           would help to reduce the risk of errors or unauthorized transactions.

       •   Three of 15 OMs, who approved 3 invoices, with a total value of $213,150, did
           not have confirmation letters from Contracting Officers, authorizing the OMs to
           perform contractor oversight responsibilities, including reviewing and approving
           invoices for payments. Also, two OMs, who had not completed the required
           training, approved three invoices totaling $130,600. Confirmation letters and
           training help to ensure that OMs correctly review and approve invoice payments
           in accordance with FDIC policies.



                                               5
        •   The CEFile did not contain 26 out of the 30 invoices sampled, which represented
            about $1.7 million out of the $5.7 million in contractor payments. OMs did not
            consistently follow the FDIC’s acquisition policy regarding documenting these
            contract activities in the CEFile. Timely inclusion of invoices in the CEFile
            ensures current, accurate, and complete records of contract activities.

    Strengthening controls in the areas of the segregation of duties, OM training, and contract
    file maintenance will help in ensuring the effectiveness and efficiency of operations,
    reliability of financial reporting, and compliance with FDIC policies and procedures.


PAYMENT PROCESSING AND GENERAL LEDGER POSTING

    We found that the FDIC has established and implemented adequate controls over the
    contractor invoice payment function and corresponding posting to the G/L. The NFE
    provides an audit trail from the authorized invoice approval through posting the payment
    transactions. We obtained documentation from DOF and traced the payment transactions
    of the 30 sampled invoices from NFE approval to disbursement and recording in the G/L.
    DOU approved the electronic payment transactions for the sampled invoices. After
    approval, DOU notified NSCU via email that the payment transactions were ready for
    processing. NSCU sent these payment transactions to the appropriate disbursement
    banks, and the automated interface in the Accounts Payable Module posted the payment
    transactions to the correct funds and expense accounts in the G/L.

    We were able to verify that the 30 contractor invoices in our sample were paid in the
    correct amount invoiced and processed in a timely manner within the limits of the PPA
    late payment provisions. In addition, the edit checks in the Accounts Payable Module for
    duplicate payments and the DOU procedures for daily monitoring of invoices worked as
    intended for the sampled invoices. There were no duplicate payments for any of the 30
    sampled invoices.

    Based on the results of our audit work, we are not making recommendations in these
    areas. However, we found that management attention is warranted in the areas of the
    segregation of duties, OM training, and contract file maintenance as discussed below.


SEGREGATION OF DUTIES FOR INVOICE APPROVAL

    We found that 5 of the 30 invoices, representing $239,300 in payments, were approved
    without an adequate segregation of duties. One OM prepared, 3 submitted, and approved
    two invoices, while another OM submitted three invoices directly to DOF for the
    contractors and then approved them for payment processing. Having one individual

    3
     Invoice preparation involved transferring billing data received from the contractor, Benefits Allocation
    Specialists (BAS), and submitting a supplemental cover page with contract information and cost allocation
    information into the invoice format required by DOF. The FDIC contracted with BAS to administer certain
    FDIC employee benefits programs and maintain FDIC employees’ benefits enrollment information.


                                                       6
      initiate and approve a transaction increases the risk of errors and unauthorized payment
      transactions. This control weakness occurred because management did not ensure
      compliance with the segregation of duties requirement for invoice preparation,
      submission, and approval in accordance with FDIC Circular 4010.3.

      The two invoices prepared and approved by the same OM were for certain contracted
      insurance providers for the FDIC’s employee health benefits programs. The contractors
      did not have access to certain information needed for billing purposes; 4 therefore, the OM
      transferred the billing data from BAS and added the required contract and cost allocation
      information on the invoices submitted to DOU for payment processing. After receiving
      notification, through the NFE, that the invoices needed approval, the same OM approved
      the invoices for payment. Having one individual with the capability to prepare, submit,
      and approve an invoice increases the risk of errors and could result in unauthorized
      payment transactions.

      The three remaining invoices, which were for expert consulting services, were also
      submitted and approved without an adequate segregation of duties. The OM for the
      consulting services contracts received the invoices from the contractor, submitted them to
      DOF, and approved the invoices for payment. 5 The Operating Expense Process
      Memorandum states that the contractor, not the OM, should submit invoices to DOU.
      The lack of segregation of duties increases the risk of errors or unauthorized payment
      transactions.

      FDIC Circular 4010.3 states that key duties and responsibilities shall be divided among
      different individuals to reduce the risk of error or fraud. Maintaining appropriate
      segregation of duties in the invoice payment process is key to safeguarding FDIC
      resources.


Recommendation Related to Segregation of Duties for Invoice Approval

      We recommend that the Director, DOA, work with the Director, DOF, to:

      (1) Strengthen controls to ensure segregation of duties for invoice preparation,
      submission, and approval.




      4
        The BAS database contains sensitive personnel enrollment information such as Social Security numbers,
      addresses, family members, and their Social Security numbers. The contracted insurance providers do not
      have direct access to the BAS database.
      5
        The contract for one invoice and a similar contract for two invoices did not specify where to send the
      invoices. This may result in the need for the contractors to contact the OM for further invoice submission
      instruction.


                                                           7
OM CONFIRMATION LETTERS AND TRAINING

      Three of 15 OMs, who approved 3 of the 30 sampled invoices did not have confirmation
      letters from Contracting Officers, authorizing them to perform OM responsibilities,
      including reviewing and approving invoices for payments. The three invoices totaled
      $213,150. In addition, two OMs approved three invoices totaling $130,600 without first
      completing the required OM training. Both of these OMs also lacked a confirmation
      letter from the Contracting Officer. The lack of OM confirmation letters and training
      occurred because DOA has not been monitoring and periodically assessing compliance
      with OM authorization requirements. Confirmation letters and training help to (1) ensure
      that the OMs are fully aware of their authorities and responsibilities and (2) reduce the
      risk of OMs approving erroneous and/or unauthorized transactions.

      The APM requires that a Letter of Oversight Manager Confirmation be issued by the
      Contracting Officer to the OM, authorizing the OM to perform a number of tasks,
      including verifying satisfactory delivery of contract terms and/or performance, and
      reviewing and approving invoices promptly to avoid late payments and incurred interest
      charges. In addition, Interim Acquisition Policy No. 2007-02, dated April 12, 2007,
      defines required competencies for OMs, and ASB has established mandatory instructor-
      led classroom training for OMs regarding FDIC contract oversight management. An
      important part of the training focuses on the OM role in contract administration, which
      includes responsibilities for reviewing and approving invoices for contractor payments.


Recommendation Related to OM Confirmation Letters and Training

      We recommend that the Director, DOA:

      (2) Monitor and periodically assess compliance with the FDIC’s acquisition policy to
      ensure that designated OMs have received confirmation letters from Contracting Officers
      and completed required training.


CONTRACT DOCUMENTATION

      We found that for the 30 invoices sampled, the CEFile did not contain 26 invoices
      representing about $1.7 million out of $5.7 million in contractor payments. This occurred
      because DOA has not been monitoring OM compliance with the requirements to ensure
      that the CEFile is current, accurate, and complete. As a result, the CEFile documents for
      16 of the18 contracts in our sample were not up to date and cannot be relied upon as a
      record of contract activities.

      Interim Acquisition Policy No. 2004-05 indicates that the CEFile is the official contract
      file of record. Further, DOA issued a memorandum, dated October 18, 2006, to FDIC
      Contracting Officers and OMs, stating that maintaining the CEFile is an ongoing and
      continuous process, and it is the responsibility of both the Contract Specialist and the OM


                                                   8
      to ensure that the CEFile is current, accurate, and complete. In particular, OMs are
      required to maintain their contract-related records such as approved invoices in the
      CEFile. OM contract administration responsibilities are performed corporate-wide.
      Accordingly, DOA needs to monitor OM compliance with acquisition policy to ensure
      the CEFile is current, accurate, and complete.


Recommendation Related to Contract Documentation

      We recommend that the Director, DOA:

      (3) Monitor and periodically assess whether OMs record contract activities, including
      invoices, in a timely manner to ensure the CEFile is current, accurate, and complete.


CORPORATION COMMENTS AND OIG EVALUATION

      On September 12, 2008, DOA and DOF provided a joint written response to the draft of
      this report. The response is provided in its entirety as Appendix 3 of this report. DOA
      and DOF concurred with our recommendations and provided planned corrective actions
      for each recommendation as discussed below.

      Regarding recommendation 1 on segregation of duties for invoice preparation,
      submission, and approval, DOA indicated that the OM’s review and approval procedures
      could be improved for invoices of the employee health benefits program. Currently, the
      FDIC’s contractor for administering the employee benefits program, BAS, provides the
      employee premiums to the FDIC. The DOA Benefits Center staff then creates a separate
      spreadsheet for the DOU showing the contract name, number, allocation codes, and
      amounts and sends the entire package as an invoice to DOU for input into the NFE. To
      improve segregation of duties, DOA’s Benefits Center staff will instruct BAS to include
      on its invoice the name and number of the contract, dollar amount allocation per budget
      line, and total dollar amount and send the invoice directly to DOU. This new procedure
      will be implemented by December 31, 2008.

      DOF also agreed to take actions to strengthen segregation of duties controls for invoice
      preparation, submission, and approval. DOU will implement a process by September 30,
      2008, to follow up with OMs who receive an invoice directly from a contractor and
      subsequently forward the invoice to the DOU for processing. DOU will reinforce to the
      OM that contractors should submit invoices directly to DOU. Where there is a valid
      business reason that supports a vendor invoice being first received by the program office,
      DOF will document this exception and stress to the program office the importance of
      maintaining appropriate segregation of duties regarding the preparation, submission, and
      approval of invoices.

      With respect to recommendation 2 on OM Confirmation Letters and Training, DOA will
      monitor and periodically assess compliance with acquisition policy through contract



                                                  9
post-award reviews to be conducted by DOA’s Acquisition Services Branch. DOA
indicated that by December 31, 2008, a contract post-award review checklist will be
developed to include a review of OM training and appointments.

Regarding recommendation 3 on contract documentation, DOA will include on the
contract post-award review checklist being developed (by December 31, 2008) a review
of the CEFile to ensure that all applicable documentation is included in that file.

A summary of management’s response to the recommendations is in Appendix 4. We
consider the planned actions to be responsive to the recommendations. The
recommendations are resolved but will remain open until we have determined that
agreed-to corrective actions have been completed and are responsive.




                                           10
                                                                                                 APPENDIX 1
                            OBJECTIVE, SCOPE, AND METHODOLOGY


Objective and Scope

      The audit objective was to assess the FDIC’s controls over contractor invoice approval,
      payment, and posting to the G/L. We conducted this performance audit from April
      through July 2008 in accordance with generally accepted government auditing standards.
      Those standards require that we plan and perform the audit to obtain sufficient,
      appropriate evidence to provide a reasonable basis for our findings and conclusions based
      on our audit objective. We believe that the evidence obtained provides a reasonable basis
      for our findings and conclusions based on our audit objectives.

      The scope of the audit was the contractor invoices processed in the NFE Accounts
      Payable Module for the 6-month period of October 1, 2007 through March 31, 2008. The
      scope was limited to EFT and check payments for FDIC contractor invoices. We
      obtained information regarding these contractor payment transactions from a query of the
      NFE Accounts Payable Module.


Methodology

      To accomplish our objective, we:

      •   Judgmentally selected 30 invoices out of the 1,148 total invoices processed through
          the NFE Accounts Payable Module during the period of October 1, 2007 through
          March 31, 2008. 6 Our sample included invoices from six FDIC divisions, the
          Division of Resolutions and Receiverships (DRR), Division of Insurance and
          Research (DIR), DOA, Division of Information Technology (DIT), Legal Division,
          and the FDIC’s Corporate University. These invoices were for contracts managed by
          both FDIC Headquarters and the Dallas Regional Office. The selected invoices
          ranged from over $1 million to less than $2,000.

      •   Interviewed the OMs for each of the 18 contracts associated with the 30 invoices in
          our sample. Examined OM files and reviewed the OM procedures for reviewing and
          approving FDIC invoices. Obtained documentation on OM confirmation letters and
          training requirements. We reviewed electronic documents stored in the CEFile, as
          well as working documents stored separately by the OMs to assist with their review
          and approval of invoices.

      •   Examined each invoice to determine whether the OMs had carried out their
          responsibilities related to invoice review as described in their letters of confirmation.
          Key responsibilities include receiving and accepting deliverables, verifying
          satisfactory contract performance before approving invoices for payment, reviewing
          and approving invoices promptly to avoid late payment interest charges, and ensuring
          that the dollar values of invoices do not exceed the expenditure authority.
      6
       The results of a non-statistical sample cannot be projected to the intended population by standard
      statistical methods.


                                                           11
                                                                            APPENDIX 1


•   Queried the CEFile to verify whether the following contract documentation related to
    the sampled invoices was included in the files: OM confirmation letters, OM-
    approved invoices, the contracts, contract modifications, and correspondence related
    to the contract events and transactions.

•   Reviewed the documentation stored in NFE to support the posting of the 30 sampled
    invoice transactions to the G/L and to verify that the amounts had been paid and
    cleared the disbursement bank.

•   Queried the NFE Accounts Payable Module to trace invoices through the entire
    process--from approval to the bank clearance. The key steps in this process are OM
    invoice approval, DOF invoice input into NFE, preparation of contractor payments
    within NFE, the posting of each transaction to the G/L, and the funding of payments
    through payment vouchers.

•   Verified that the 30 invoices in our sample had been paid within the required
    timeframes of the PPA provisions regarding late payments.

•   Considered relevant provisions of the FDIC’s policies pertaining to the following:

     o The FDIC’s APM, which provides FDIC policy on contracting for products and
     services.

     o The FDIC’s Circular 4010.3, FDIC Enterprise Risk Management Program,
     which adopts the internal control standards prescribed in the GAO publication,
     Standards for Internal Control in the Federal Government. These standards apply
     to all operations (programmatic, financial, and compliance) and are intended to
     ensure the effectiveness and efficiency of operation, reliability of financial
     reporting, and compliance with applicable laws and regulations. Circular 4010.3
     requires management to develop and implement controls to ensure that management
     directives are carried out and to provide reasonable assurance that controls are
     sufficient to minimize exposure to waste, fraud, and mismanagement.

     o GAO’s publication, Standards for Internal Control in the Federal Government,
     as largely adopted in FDIC Circular 4010.3.

     o DOF’s Accounts Payable Operating Procedures Manual, which documents the
     activities and procedures related to the FDIC’s Accounts Payable function.

We performed our audit work at the FDIC’s Headquarters offices in Arlington, Virginia,
and Washington, D.C., and the Dallas Regional Office.




                                            12
                                                                                  APPENDIX 1


Internal Controls

      We identified the key control points in the FDIC’s invoice payment processes. Our tests
      addressed these key control activities:

      •   The separation of duties between receiving, billing, and purchasing functions.

      •   The required verification of receipt of goods and services before payments can be
          authorized.

      •   The required authorization (OM confirmation letters and FDIC contract oversight
          management training) for OMs to carry out their responsibilities.

      •   DOF’s independent review of invoices for compliance with the FDIC’s billing
          policies.

      •   DOF’s review for suspect invoices prior to payment processing.

      •   DOF managerial review and approval of funding payments.


Reliance on Computer-processed Information

      In performing this audit, we relied on data from the NFE and CEFile. We confirmed the
      accuracy of the data through tracing to source documents and considered the
      reasonableness of data such as electronic timesheets of hours charged on invoices.


Performance Measurement

      We reviewed the FDIC’s 2008 Annual Performance Plan and found that it did not
      contain specific goals, objectives, or performance measures that were relevant to our
      audit. We did note that DOF maintains a Balanced Scorecard to track initiatives, targets,
      and accomplishments. The Balanced Scorecard for 2007 indicates a number of
      accomplishments that enhance the controls over contractor invoice approval, payment,
      and posting processes:

          •   Under Internal Operational Excellence, DOF had an objective of continuous
              improvement. In 2007, the target of having all hard copies of contractor invoices
              scanned into NFE and electronically routed to the OM had been accomplished.
              Procedures have been written, and new contracts are being written to encourage
              vendors to submit invoices electronically.

          •   Under Promoting Financial Stewardship, DOF has completed a formal program
              of post-payment controls, reviews, and monitoring and incurred only $1,982 in
              interest related to the PPA for 2007.


                                                  13
                                                                                   APPENDIX 1


Compliance with Laws and Regulations

      The following laws and regulations are relevant to the FDIC’s controls over contractor
      invoice approval, payment and posting to the G/L:

      •   The Federal Managers’ Financial Integrity Act (FMFIA) (31 United States Code
          3512, subsection (b)) states the head of each executive agency shall establish and
          maintain systems of accounting and internal controls that provide complete disclosure
          of the financial results of the activities of the agency and adequate financial
          information the agency needs for management purposes. In addition, FMFIA
          requires the head of each executive agency to establish internal accounting and
          administrative controls that reasonably ensure that (1) obligations and costs comply
          with applicable law; (2) all assets are safeguarded against waste, loss, unauthorized
          use, and misappropriation; and (3) revenues and expenditures applicable to agency
          operations are recorded properly so that accounts and reliable financial and statistical
          reports may be prepared and accountability of assets may be maintained. While the
          FDIC is not an executive agency for purposes of the FMFIA, provisions of the
          FMFIA became applicable to the FDIC via the Chief Financial Officers Act of 1990,
          described below.

      •   The Chief Financial Officers Act of 1990 (CFOA) requires that government
          corporations such as the FDIC submit an annual management report to the Congress
          that includes a statement on internal accounting and administrative control systems by
          the head of the management of the corporation, consistent with the requirements for
          agency statements on internal accounting and administrative control systems under
          the amendments made by the FMFIA. CFOA also requires the Inspectors General to
          audit their agencies’ financial statements unless the GAO conducts the audit instead.

      •   The Federal Deposit Insurance Act (FDI Act), section 17(e), requires that the
          financial transactions of the FDIC be audited by the GAO in accordance with the
          principles and procedures applicable to commercial corporate transactions and under
          such rules and regulations as may be prescribed by the Comptroller General of the
          United States.

      •   Two Office of Management and Budget (OMB) Circulars related to internal controls
          and financial management systems were issued to guide agency compliance with
          FMFIA.

             o Circular No. A-123, Management’s Responsibility for Internal Control, notes
               the provisions of FMFIA regarding internal controls, then specifies
               requirements for assessing internal control, correcting internal control
               deficiencies, and reporting on internal control. The circular’s high-level
               discussion does not prescribe specific control or assessments for a particular
               type of account, but the circular's principles are applicable to all types of
               agency internal control.




                                                   14
                                                                             APPENDIX 1


       o Circular No. A-127, Financial Management Systems, deals with financial
         management systems, i.e., systems that can be used for processing and reporting
         data about financial events; supporting financial planning or budgeting activities;
         accumulating and reporting cost information; or supporting the preparation of
         financial statements. Financial management systems form a portion of the
         management control structure required by Circular No. A-123. Circular
         No. A-127 has a number of provisions addressing the U.S. Government Standard
         General Ledger and on the internal control aspects of financial management
         systems, among other things. The circular includes various requirements for
         systems as well as related agency responsibilities, to include the development of
         financial management inventories, plans, reviews, and directives.

           Circular No. A-127 also references OMB Circular No. A-130, Management of
           Federal Information Resources, indicating that the circular applies to all agency
           information resources, including financial management systems as defined in
           Circular No. A-127. Circular No. A-130 addresses various issues related to
           information technology systems, as well as paper-based systems.

    The FDIC has determined that to the extent that Circulars No. A-123 and No. A-127
    articulate the standards of FMFIA, the FDIC should adhere to those standards.
    Moreover, the FDIC is not bound by the letter of the circulars, but as long as the FDIC
    develops internal controls that are consistent with the goals of FMFIA, the FDIC will
    have met its legal obligations. Most provisions of Circular No. A-130 apply to the FDIC.

•   The PPA and/or its implementing regulations (5 C.F.R. Part 1315), require generally that
    agencies pay vendor invoices timely and include interest in their payments if (1) payment
    is made after the contractual due date or due date established by the regulations, as
    appropriate, or (2) if agencies claim discounts beyond the indicated discount period. We
    refer to these provisions as the “late-payment provisions.” The Act or the regulations
    also contain detailed requirements for invoice content, receipts of goods and services, and
    contract documentation. According to the regulations, agencies should pay invoices
    close to, but not later than, the applicable due dates. Moreover, agencies should have
    adequate controls governing the payment process, consistent with OMB Circular
    Nos. A-123 and A-127 as discussed above.

The FDIC has determined that the Act is applicable to invoices relating to the FDIC in its
corporate capacity but generally not its receivership capacity unless contract terms are to the
contrary.

We assessed DOA’s and DOF’s internal controls and practices for invoice approval,
payment, and posting payment transactions to the G/L for consistency with the above laws
and regulations, although we limited our assessment of the PPA to late payment provisions.

We assessed the risk of fraud and abuse related to the audit objective in the course of
evaluating audit evidence.




                                             15
                                                                                 APPENDIX 2
                               SAMPLED INVOICES


                                                        FDIC
                    Invoice           Invoice          Contract
FDIC Division       Number            Amount           Number             OM Location
Corporate
University      2107                   $21,932.70   CORHQ0893        Headquarters
Corporate       FDIC2008-01-
University      101                     $1,787.50   CORHQ178         Headquarters
DIR             FDIC55                  $3,360.00   CORHQ1011        Headquarters
DIR             FDIC56                  $3,680.00   CORHQ1011        Headquarters
DIR             07-004                  $9,416.67   CORHQ1022        Headquarters
                028-
DIT             0002045571          $1,634,809.42   CORHQ680         Headquarters
                031-
DIT             0002061105          $1,223,357.56   CORHQ680         Headquarters
DIT             FDAD0907             $442,695.16    CORHQ896         Headquarters
DIT             FDAD1207             $688,108.30    CORHQ896         Headquarters
DIT             400439                 $85,252.62   CORHQ904         Headquarters
DOA             25432                  $22,690.79   CORHQ802         Headquarters
DOA             25506                  $50,961.22   CORHQ802         Headquarters
                METLIFE-
DOA             PP02-08              $192,129.45    CORHQ906         Headquarters
DOA             VSP-PP21-07            $30,719.75   CORHQ919         Headquarters
DOA             KC00683625           $133,592.73    CORHQ987         Headquarters
DOA             KC00688644           $214,746.14    CORHQ987         Headquarters
DRR             278440                 $32,100.00   CORFD120         Dallas Regional Office
DRR             07-F-009-A             $35,310.99   CORFD189         Headquarters
DRR             08-F-002-A             $14,785.00   CORFD189         Headquarters
DRR             2785.84-022908          $2,785.84   CORFD205         Dallas Regional Office
DRR             401676                 $21,246.00   CORFD285         Headquarters
DRR             8000574104           $292,384.07    CORFD313         Dallas Regional Office
DRR             8000574104B         *($22,384.07)   CORFD313         Dallas Regional Office
DRR             8000574104D            $22,384.07   CORFD313         Dallas Regional Office
DRR             8000608194           $356,362.35    CORFD313         Dallas Regional Office
DRR             401680                 $12,468.97   CORFD317         Headquarters
DRR             201-1225               $36,366.00   CORFD42          Dallas Regional Office
DRR             201-1234               $36,366.00   CORFD42          Dallas Regional Office
Legal           083681                 $14,580.96   CORHQ135         Headquarters
Legal           3373810827             $95,797.34   CORHQ979         Headquarters
                Total             $5,709,793.53
  Source: OIG Analysis of NFE payment transactions processed from October 1, 2007 through
  March 31, 2008.

  *This amount was deducted from the invoice because the OM initially deemed that travel expenses
  were not allowed under the contract for this invoice. However, the OM subsequently determined
  that the travel expense was allowable on the contract and approved the billed travel expense.




                                            16
                       APPENDIX 3

CORPORATION COMMENTS
     APPENDIX 3




18
     APPENDIX 3




19
                                                                                                      APPENDIX 4
                       MANAGEMENT RESPONSE TO RECOMMENDATIONS



This table presents the management response on the recommendations in our report and the status of the
recommendations as of the date of report issuance.

      Rec.     Corrective Action: Taken or             Expected    Monetary      Resolved:a     Open or
      No.                Planned                      Completion   Benefits      Yes or No      Closedb
                                                         Date
        1     DOA’s Benefits Center staff will        12/31/2008       NA            Yes          Open
              instruct BAS, the contractor for
              administering the employee
              benefits programs, to include the
              required information on the
              invoices for the program and send
              the invoices directly to DOF.

              DOF will implement a process to         09/30/2008
              follow up with OMs who receive
              an invoice directly from a
              contractor and forward the invoice
              to DOF for processing. DOF will
              reinforce to the OM that contractors
              should submit invoices directly to
              DOF. If there is a valid reason for
              a vendor invoice being first
              received by the program office,
              DOF will document this exception
              and stress to the program office the
              importance of maintaining
              segregation of duties for invoice
              preparation, submission, and
              approval.

        2     DOA will include a review of OM         12/31/2008       NA            Yes          Open
              training and appointments on a new
              review checklist for contract post-
              award reviews to be conducted for
              contract compliance.

        3     DOA will also include on the            12/31/2008       NA            Yes          Open
              contract post-award review
              checklist a CEFile review to ensure
              that all contract documentation is in
              the files.
 a
     Resolved – (1) Management concurs with the recommendation, and the planned, ongoing, and completed
                 corrective action is consistent with the recommendation.
                (2) Management does not concur with the recommendation, but alternative action meets the intent
                 of the recommendation.
                (3) Management agrees to the OIG monetary benefits, or a different amount, or no ($0) amount. Monetary
                 benefits are considered resolved as long as management provides an amount.
 b
   Once the OIG determines that the agreed-upon corrective actions have been completed and are responsive to the
 recommendations, the recommendations can be closed.




                                                            20
                                                        APPENDIX 5
                ACRONYMS USED IN THE REPORT



APM       Acquisition Policy Manual
ASB       Acquisition Services Branch
BAS       Benefits Allocation Specialists
CEFile    Contract Electronic File
CFOA      Chief Financial Officers Act of 1990
C.F.R.    Code of Federal Regulations
DIR       Division of Insurance and Research
DIT       Division of Information Technology
DOA       Division of Administration
DOF       Division of Finance
DOU       Disbursement Operations Unit
DRR       Division of Resolutions and Receiverships
EFT       Electronic Funds Transfer
FASAB     Federal Accounting Standards Advisory Board
FASB      Financial Accounting Standards Board
FDI Act   Federal Deposit Insurance Act
FMFIA     Federal Managers’ Financial Integrity Act
GAAP      Generally Accepted Accounting Standards
GAO       Government Accountability Office
G/L       General Ledger
NFE       New Financial Environment
NSCU      NFE Servicing and Control Unit
OIG       Office of Inspector General
OM        Oversight Manager
OMB       Office of Management and Budget
PPA       Prompt Payment Act




                                  21
